FDIC Office of Inspector General Press Release: Maryland Owner of Loan Brokerage Firms Indicted on Fraud Charges
The United States Attorney's Office
Rod J. Rosenstein, United States Attorney
District of Maryland
CONTACT: Vickie E. LeDuc
Public Information Officer
410-209-4800
FOR IMMEDIATE RELEASE
April 30, 2014
Maryland Owner of Loan Brokerage Firms Indicted on Fraud Charges
Indictment Seeks Forfeiture of Over $14 Million
Baltimore, Maryland - A federal grand jury has indicted Jeong Joon Moon, a/k/a Patrick Moon, age 46, of Germantown, Maryland, on charges arising from a scheme to defraud financial institutions who loaned money to small businesses. The indictment was returned on April 24, 2014, and unsealed today. Moon was arrested and her initial appearance is scheduled for 3:00 pm today in federal court in Baltimore.
The indictment was announced by United States Attorney for the District of Maryland Rod J. Rosenstein; Small Business Administration (SBA) Inspector General Peggy E. Gustafson; Postal Inspector in Charge Gary R. Barksdale of the U.S. Postal Inspection Service - Washington Division; Assistant Director in Charge Valerie Parlave of the Federal Bureau of Investigation's Washington Field Office; and Acting Inspector General Fred W. Gibson, Jr. of the Federal Deposit Insurance Corporation.
Moon owned and operated JM Capital Solutions, Inc. and RNB Consulting, Inc., which were loan brokerage firms with offices located in Annandale and Springfield, Virginia. These firms specialized in securing loans for individuals interested in purchasing or refinancing small businesses in Maryland, Virginia, the District of Columbia and elsewhere.
Moon encouraged prospective borrowers to apply for business loans through the SBA's Section 7(a) program, which authorizes SBA to help small businesses obtain financing by guaranteeing 75 to 90 percent of qualified loans made by commercial lenders. Small business owners are required to invest a certain amount of their own money into the business before they can qualify for the loan. Moon compiled and submitted to lenders the documentation necessary to substantiate the borrowers' equity injection and ability to repay loans guaranteed by SBA, as well as documentation needed for other commercial loans.
According to the 25 count indictment, from 2006 to April 2014, Moon and others defrauded financial institutions by submitting false copies of the borrowers' monthly bank statements to reflect more money than was actually in the borrowers' bank accounts. Moon and others also allegedly prepared and submitted false tax returns for the borrowers which inflated the borrowers' income. The financial institutions relied on the false information to lend funds to the borrowers, which resulted in loan broker commissions being paid to JM Capital and RNB Consulting.
The indictment also alleges that on July 12 and 15, 2013, Moon altered, destroyed or concealed
documents relating to six loans guaranteed by SBA for six small businesses, intending to impede the federal investigation of such loans.
The indictment seeks the forfeiture of $14,708,000, the amount of fraudulently obtained loans.
Moon faces a maximum sentence of 30 years in prison for conspiracy to commit bank fraud, and for each of the 18 counts of bank fraud; and 20 years in prison on each of six counts for destruction of records in a federal investigation.
An indictment is not a finding of guilt. An individual charged by indictment is presumed innocent unless and until proven guilty at some later criminal proceedings.
Today's announcement is part of efforts underway by President Obama's Financial Fraud Enforcement Task Force (FFETF) which was created in November 2009 to wage an aggressive, coordinated and proactive effort to investigate and prosecute financial crimes. With more than 20 federal agencies, 94 U.S. attorneys' offices and state and local partners, it's the broadest coalition of law enforcement, investigatory and regulatory agencies ever assembled to combat fraud. Since its formation, the task force has made great strides in facilitating increased investigation and prosecution of financial crimes; enhancing coordination and cooperation among federal, state and local authorities; addressing discrimination in the lending and financial markets and conducting outreach to the public, victims, financial institutions and other organizations. Over the past three fiscal years, the Justice Department has filed more than 10,000 financial fraud cases against nearly 15,000 defendants including more than 2,700 mortgage fraud defendants. For more information on the task force, visit www.stopfraud.gov.
United States Attorney Rod J. Rosenstein praised the SBA - OIG, U.S. Postal Inspection Service, FBI and FDIC for their work in the investigation. Mr. Rosenstein thanked Assistant United States Attorneys Leo J. Wise and Marty Clarke, who are prosecuting the case.